No. _______
IN THE

Supreme Court of the United States
JOHN M. MARSHALL; KAREN M. MARSHALL; MARSHALL ASSOCIATED, LLC; ESTATE OF
RICHARD MARSHALL, DECEASED, Patsy L. Marshall, Personal Representative; and
PATSY L. MARSHALL, Transferees,
Applicants,
V.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.
APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

ROBERT J. CHICOINE
ROBERT CHICOINE LAW
SODO Commerce Building
66 S. Hanford Street
Suite 300
Seattle, WA 98134
(206) 467-9000
MELISSA ARBUS SHERRY
ERIC J. KONOPKA
LATHAM & WATKINS LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200

ROBERT C. WEAVER
Counsel of Record
FOSTER GARVEY PC
121 SW Morrison Street
11th Floor
Portland, OR 97204
(503) 553-3123
Email: robert.weaver@foster.com
DEVRA R. COHEN
FOSTER GARVEY PC
1111 Third Ave.
Suite 3000
Seattle, WA 98101
(206) 447-4400
Counsel for Applicants

December 16, 2019

RULE 29.6 STATEMENT
Marshall Associated, LLC does not have a parent corporation; it does not
issue stock; nor does there exist a publicly held corporation that owns 10% or more
of its stock.

No. _______
IN THE

Supreme Court of the United States
JOHN M. MARSHALL; KAREN M. MARSHALL; MARSHALL ASSOCIATED, LLC; ESTATE OF
RICHARD MARSHALL, DECEASED, Patsy L. Marshall, Personal Representative; and
PATSY L. MARSHALL, Transferees,
Applicants,
V.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.
APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
Pursuant to 28 U.S.C. § 2101(c) and Supreme Court Rules 13.5, 22, and 30.3,
Applicants John M. Marshall; Karen M. Marshall; Marshall Associated, LLC;
Estate of Richard Marshall, Deceased, Patsy L. Marshall, Personal Representative;
and Patsy L. Marshall (collectively, “the Marshalls”) respectfully request a 30-day
extension of time, up to and including January 30, 2020, within which to file a
petition for a writ of certiorari to review the judgment of the United States Court of
Appeals for the Ninth Circuit in this case. The judgment of the court of appeals was
entered on July 23, 2019. (A copy of the court’s decision, Marshall v. Commissioner,
782 F. App’x 565 (9th Cir. 2019), is attached hereto as Attachment 1.) The
Marshalls timely filed a petition for panel rehearing and rehearing en banc, which

the Ninth Circuit denied on October 2, 2019. (A copy of the order denying rehearing
is attached hereto as Attachment 2.) Currently, any petition for a writ of certiorari
would be due on December 31, 2019. This application has been filed more than 10
days before the date a petition would be due. See Sup. Ct. R. 13.5. This Court has
jurisdiction under 28 U.S.C. § 1254(1) to review the decision in this case.
1.

This case involves transferee liability under Section 6901 of the

Internal Revenue Code. Section 6901 provides the government with a streamlined
procedural mechanism to collect taxes from transferees, but does not create
substantive liability for the taxes. See 26 U.S.C. § 6901(a). In Commissioner v.
Stern, this Court was faced with the question whether “substantive liability
enforced under [§ 6901] is to be determined by state or federal law.” 357 U.S. 39, 42
(1958). Although the government urged the Court to adopt a federal rule to “further
‘uniformity of liability,’” id. at 44, the Court rejected that position, holding that,
“until Congress speaks to the contrary, the existence and extent of liability should
be determined by state law.” Id. at 45. As the Court explained, “[t]he Government’s
substantive rights . . . are precisely those which other creditors would have under
[state] law.” Id. at 47.
The courts of appeals have interpreted Stern as creating a two-prong,
conjunctive test to determine whether the Internal Revenue Service may collect
taxes from an alleged transferee. Under this framework, the court must evaluate
(1) whether the alleged transferee is liable under state law, and (2) whether that
person or entity is a “transferee” under federal law. See, e.g., Salus Mundi Found. v.

2

Comm’r, 776 F.3d 1010, 1012 (9th Cir. 2014); Diebold Found. v. Comm’r, 736 F.3d
172, 184 (2d Cir. 2013); Starnes v. Comm’r, 680 F.3d 417, 427 (4th Cir. 2012).
2.

Brothers John and Richard Marshall founded Marshall Associated

Contractors, Inc. (“MAC”) in 1965. The brothers and their wives, Karen and Patsy
Marshall, owned equal shares of the company. In 2003, the Marshalls completed
three transactions to sell their stock in MAC, their closely held family business, to
an unrelated third party. Nearly a decade later, the Internal Revenue Service
challenged the transactions and sought to hold the Marshalls liable for the third
party’s subsequent failure to satisfy MAC’s tax liability. The Tax Court “collapsed”
the three transactions, recharacterizing them as a liquidating distribution from
MAC to the Marshalls. The court then concluded that the Marshalls were
“transferees” of MAC’s assets for purposes of 26 U.S.C. § 6901, and held the
Marshalls liable for more than $41 million in unpaid taxes. *
3.

The Ninth Circuit affirmed. See infra Attachment 1. While the court of

appeals purported to apply the two-prong analysis, it did not, in fact, apply the state
law applicable to private creditors to determine whether the three transactions
could be collapsed to make the Marshalls liable for MAC’s unpaid taxes—as Stern
requires. Instead, the court relied on the Oregon Uniform Fraudulent Transfer Act
(which, properly analyzed, does not permit collapsing), a Ninth Circuit case
applying the Arizona Uniform Fraudulent Transfer Act, and two Oregon cases that

*

The Tax Court found John, Karen, and Patsy Marshall each liable for
$8,689,384; Richard Marshall’s estate liable for $8,660,115; and Marshall
Associated, LLC liable for $6,766,500.
3

do not address the law applicable to private creditors, to hold that the Marshalls
were liable.
4.

This case implicates considerable confusion among the courts

regarding the appropriate analysis under Stern and, in particular, the directive that
substantive liability be determined as a matter of state private creditor law. The
decision below continues a concerning trend of federal courts ignoring the law
applicable to private creditors in the relevant state in favor of general principles of
federal law or “uniformity” to collapse transactions and find liability. See, e.g., Slone
v. Comm’r, 810 F.3d 599, 605, 607–08 (9th Cir. 2015) (requiring the Tax Court to
apply federal law to determine whether to collapse transactions); Feldman v.
Comm’r, 779 F.3d 448, 454–57 (7th Cir. 2015) (applying general principles of federal
tax law to collapse transactions). This approach improperly expands the IRS’s
ability to collect taxes from parties that did not incur the liability, causes federal
creep on a critical area of state law, and is directly contrary to this Court’s mandate
in Stern. 357 U.S. at 45. This Court’s review is warranted.
5.

The petition in this case is currently due on December 31, 2019. A brief

extension of time is warranted to prepare and file a petition for a writ of certiorari
in this case.
6.

The additional time sought in this application is necessary because the

attorneys with principal responsibility for drafting the petition have competing
professional commitments over this same time period—and because of the
intervening holidays.

4

7.

Additionally, the Marshalls recently retained Supreme Court counsel.

Specifically, Latham & Watkins LLP was retained in recognition of their extensive
experience before this Court. An extension of time is appropriate to enable those
attorneys to become familiar with the extensive, complex record.
8.

The Ninth Circuit has already issued its mandate in this case.

Consequently, the requested 30-day extension would not delay the issuance of the
mandate. Moreover, the extension requested would not work any meaningful
prejudice on any party.
9.

For these reasons, the Marshalls respectfully request that the time for

filing a petition for a writ of certiorari in this case be extended to and including
January 30, 2020.

5

December 16, 2019

Respectfully submitted,
______________________________
ROBERT C. WEAVER
Counsel of Record
FOSTER GARVEY PC
121 SW Morrison Street
11th Floor
Portland, OR 97204-3141
(503) 553-3123
Email: robert.weaver@foster.com
DEVRA R. COHEN
FOSTER GARVEY PC
1111 Third Ave.
Suite 3000
Seattle, WA 98101
(206) 447-4400
ROBERT J. CHICOINE
ROBERT CHICOINE LAW
SODO Commerce Building
66 S. Hanford Street
Suite 300
Seattle, WA 98134
(206) 467-9000
MELISSA ARBUS SHERRY
ERIC J. KONOPKA
LATHAM & WATKINS LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200
Counsel for Applicants

6

ATTACHMENT 1

ATTACHMENT 2

No. _______
IN THE

Supreme Court of the United States
JOHN M. MARSHALL; KAREN M. MARSHALL; MARSHALL ASSOCIATED, LLC; ESTATE OF
RICHARD MARSHALL, DECEASED, Patsy L. Marshall, Personal Representative; and
PATSY L. MARSHALL, Transferees,
Applicants,
V.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.
APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
CERTIFICATE OF SERVICE
I, Robert C. Weaver, a member of the Bar of this Court, hereby certify that on
December 16, 2019, I caused copies of this Application for an Extension of Time
Within Which to File a Petition for a Writ of Certiorari to the United States Court of
Appeals for the Ninth Circuit in the above-captioned case to be mailed, first-class
postage prepaid, to:
Norah E. Bringer
Tax Division
U.S. Department of Justice
Post Office Box 502
Washington, DC 20044
(202) 307-6224
appellate.taxcivil@usdoj.gov
Counsel for Respondent

Noel Francisco
Solicitor General of the United States
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2203
SupremeCtBriefs@USDOJ.gov
Counsel for United States
Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Application for an Extension of Time Within Which to File a Petition
for a Writ of Certiorari to the United States Court of Appeals for the Ninth Circuit
was transmitted the above-listed counsel at the referenced email addresses.
I further certify that all parties required to be served have been served.

By __________________________
Robert C. Weaver
Counsel for Applicants

2

